PETITION FOR CERTIORARI
From 4th Circuit Court of Appeals, Case #19-1409
Originally filed in North Carolina Federal District Court, Case #2:16-cv-00061-FL
SUSAN W. VAUGHAN

v
SHANNON FOLTZ, et al
Submitted the 26th day of February, 2021— Resubmitted. Revised this the 15th day of April, 2021

CERTIFICATION
I, Susan W. Vaughan, Plaintiff, certify that on the 26th day of February, 2021,1 served a first version of
the foregoing Supreme Court Petition for Certiorari, with Appendices and Motion to proceed in forma
pauperis, in the case of Plaintiff v. Shannon Foltz, et al, to Defendants' attorneys named below. Copies were
mailed via U.S. Postal Service, First Class mail, with proper postage and label affixed. Plaintiff further
certifies that on this the 15th day of April, she also served a revised version of the foregoing Petition with
Appendices, via properly stamped, first class USPS mail, on the same attorneys representing defendants in
this case, at their addresses, listed below.

Susan W. Vaughan

April 15, 2021

/

613 Fifth Ave, Apt. 1
Greensboro, NC, 27405
wellsvaughan@gmail.com
Christopher Geis
Womble et al
One W. Fourth St
Winston Salem, NC
27101

Dan Hatzog, Jr
Hartzog Law Group
2626 Glenwood Ave
Ste. 305
Raleigh, NC 27698

Kathryn Shields
NC DOJ
PO Box 629
Raleigh NC
27602-0629

41

